                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




        FISCAL YEAR 2012 EVALUATION OF THE
          CORPORATION’S COMPLIANCE WITH
        IMPROPER PAYMENTS ELIMINATION AND
               RECOVERY ACT (IPERA)

                     OIG REPORT 13-04




                  1201 New York Ave, NW
                        Suite 830
                   Washington, DC 20525

                        (202) 606-9390




This report was issued to Corporation management on March 14, 2013. Under
the laws and regulations governing audit follow-up, the Corporation is to make
final management decisions on the report’s findings and recommendations no
later than September 16, 2013 and complete its corrective actions by March 14,
2014. Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                                    Office of inspector General




                                         March 14, 2013

TO:            Wendy Spencer
               Chief Executive Officer      I /     /7


FROM:          Stuart Axenfeld  j
               Assistant Inspector Gen'al
                                         / VZ
                                           ~or    Audit

SUBJECT:       Office of Inspector General (OIG) Report 13-04: Fiscal Year 2012 Evaluation of
               the Corporation's Compliance with Improper Payments Elimination and Recovery
               Act (IPERA)


Attached is the final report on the OIG's Fiscal Year 2012 Evaluation of the Corporation's
Compliance with Improper Payments Elimination and Recovery Act (lPERA) . This evaluation
was performed by OIG staff in accordance with the Quality Standards for Inspection and
Evaluation.

Under the Corporation's audit resolution policy, a final management decision on the findings in
this report is due by September 16, 2013. Notice of final action is due by March 14, 2014.

If you have questions pertaining to this report, please contact Thomas Chin, Audit Manager, at
(202) 606-9362 or t.chin@cncsoig.gov; or me at (202) 606-9360 or s.axenfeld@cncsoig.gov.

Attachment

cc:   Robert Velasco II, Chief Operating Officer
      David Rebich, Chief Financial Officer
      Douglas Hilton, Director of Accountability and Oversight




                   1201 New York Avenue, NW  *  Suite 830 *Washington, DC 20525
                      202-606-9390  *Hotline: 800-452-8210 *www.cncsoig.goY
                                                            CONTENTS

Section                                                                                                                        Page

Executive Summary ........................................................................................................... 1

Results of Evaluation ......................................................................................................... 2

Objective, Scope, and Methodology .................................................................................. 6

Background ........................................................................................................................ 7

Exit Conference .................................................................................................................. 8

Corporation Response ....................................................................................................... 8

OIG Comment .................................................................................................................... 9


Appendix

A: Corporation’s Response to Draft Report


                                                    TABLE OF ACRONYMS

                        AFR          Agency Financial Report
                        FFR          Federal Financial Report
                        FY           Fiscal Year
                        IPIA         Improper Payments Information Act of 2002
                        IPERA        Improper Payments Elimination and Recovery Act
                        OIG          Office of Inspector General
                        OMB          Office of Management and Budget
                                   EXECUTIVE SUMMARY

In response to the President’s July 2010 mandate on implementing the Improper
Payments Elimination and Recovery Act (IPERA), the Office of Inspector General (OIG),
Corporation for National and Community Service (Corporation) performed an evaluation
of the Corporation’s compliance with IPERA. The objective of our evaluation was to
determine whether the Corporation performed its improper payments assessment in
compliance with IPERA, applicable Executive Orders, and the Office of Management
and Budget (OMB) guidance.

For the second year in a row, the OIG concludes that the Corporation continues to
understate its improper payments and has not accurately assessed the susceptibility of
at least some of its programs. Six OIG audits of AmeriCorps State and National
grantees—representing a small fraction of the grant portfolio—in Fiscal Year (FY) 2012
uncovered questioned costs of approximately $ 3.6 million. Experience suggests that
similar problems exist elsewhere in the portfolio, making improper payments more
prevalent than the Corporation acknowledges. Despite this, the Corporation’s FY 2012
Agency Financial Report (AFR) does not contain an estimate of improper payments,
does not describe the actions taken or to be taken to prevent and recover improper
payments, and does not address the adequacy of its internal controls.

The Corporation’s approach to identifying and reducing improper payments requires
further development. The assessment that the Corporation obtained from a consultant
was poorly designed and not likely to yield useful information. First, the Corporation
selected FY 2010 as the period to be reviewed, making the results untimely when they
were delivered in FY 2012. The Corporation has not attempted to estimate or evaluate
its improper payments for FY 2011 or FY 2012. Second, with the Corporation’s consent,
virtually all of the testing undertaken by the consultant occurred at the grant level. There
was no review of individual disbursements, eligibility of members for stipends and
education awards, or allowability of costs paid by grantees, although a long history of
OIG audits demonstrates that deficiencies in these areas give rise to millions of dollar of
improper payments. Third, both the Corporation’s risk assessment and its estimate
disregarded specific findings from OIG audit reports and investigations. Without
acknowledging known risks and a reliable estimate of improper payments, the
Corporation cannot strengthen its internal controls to prevent their recurrence.

One important opportunity to reduce improper payments lies in appropriate utilization of
the Department of Treasury’s (Treasury’s) Do Not Pay solution to verify the eligibility of
potential recipients of Federal funds. The Corporation has not yet taken advantage of
this resource, which exists to prevent improper payments. We believe that the
Corporation should develop a plan for doing so, including the use of data analytic
services offered as part of the Do Not Pay solution.




                                             1
                                                               RESULTS OF EVALUATION

Finding 1.               The Corporation has not complied with the reporting requirements of
                         IPERA.

IPERA requires the Corporation to include in its AFR:

       a. A statistically valid estimate of improper payments in every program or activity
          determined to be susceptible to significant improper payments, defined as (i)
          more than $10 million in amount and (ii) more than 2.5 % of program outlays;
       b. A report on actions by the Corporation to reduce and recover improper
          payments; and
       c. A statement as to whether the Corporation has sufficient resources—including
          internal controls, human capital, information systems and other infrastructure—to
          prevent improper payments, and, if it does not, a description of the additional
          resources needed to do so.

The Corporation’s FY 2012 AFR relies upon a determination made the prior year that
none of its programs were susceptible to significant improper payments under IPERA
criteria. FY 2012 AFR at page 86. Accordingly, the FY 2012 AFR contains no estimate
of improper payments in any program, does not describe actions to reduce improper
payments or recover them after the fact, and does not address the adequacy of the
Corporation’s internal controls.

The FY 2012 AFR does not explain the basis for the Corporation’s determination that
none of its programs is susceptible to significant levels of improper payment and
contains no description of the assessment procedures that led to this conclusion. The
OMB Circular A-136, Financial Reporting Requirements, Section II.5.8, IPIA [Improper
Payments Information Act of 2002] (as amended by IPERA) Reporting Details, describes
the format that agencies should use for improper payment reporting in their annual
AFRs, including: risk assessment, statistical sampling, corrective actions, and improper
payment reduction outlook table. The Corporation did not follow this reporting format.

The OIG believes that one or more of the Corporation’s programs are in fact susceptible
to significant improper payments. A mere six audits of AmeriCorps State and National
programs conducted by the OIG in FY 2012 identified more than $3.6 million questioned
costs.1 Those audits covered only a small fraction of the approximately 368 AmeriCorps
State and National active grants overseen by the Corporation. However, our experience
suggests that the problems that gave rise to these questioned costs are widespread and
result in a greater incidence of improper payments than the Corporation has
acknowledged.2 Because the Corporation has underestimated the extent of its improper

                                                            
1
  A questioned cost is an alleged violation of a provision of law, regulation, contract, grant, cooperative
agreement, or other agreement or document governing the expenditure of funds or a finding that, at the time
of testing, includes costs not supported by adequate documentation.
2
  In addition to the six OIG audits referenced above, a recent OMB Circular A-133 audit of a state service
commission identified improper costs of more than $91,000 and estimated another $517,000 in questioned
costs. Similarly, a search warrant affidavit recently made public contained detailed information concerning a
$4 million theft and fraud investigation of a grantee. Although the Corporation was not on notice of these
particular improper payments in FY 2012, we offer them as examples that tend to confirm our view that
significant improper payments are occurring.  

                                                                        2
payments, the IPERA section of the Corporation’s FY 2012 AFR was incomplete and not
adequately presented.

Recommendations

We recommend that the Corporation:

   1a. Re-evaluate the susceptibility of its programs to improper payments, taking into
       account all available information;

   1b. Include in future AFRs detailed descriptions of the procedures performed in
       connection with its evaluation of improper payments (to include risk assessment,
       sample methodology, and testing), and provide well founded estimates; and

   1c. Specify what actions the Corporation has taken or plans to take to reduce
       improper payments and describe whatever additional resources it needs to
       make meaningful progress in this area.

Finding 2.   The Corporation’s methodology used to assess and estimate
             improper payments was insufficient and ineffective (a modified repeat
             finding from prior year).

As in the prior year, the Corporation could not prepare a reasonable and reliable
estimate of its improper payments because its methodology was fundamentally flawed.
In our FY 2011 assessment, we found that the Corporation had directed its IPERA
consultant not to test whether payments were made for their intended purpose, i.e.,
whether payments were being used to support unallowable activities. Our FY 2012
assessment likewise found a basic inadequacy in the Corporation’s methodology, in that
the tested attributes were limited to the grant level, and did not address the permissibility
of disbursements from those grants. The attributes tested by the Corporation for
AmeriCorps State and National and Senior Corps grants included:

     Verifying that the grant application was complete
     Verifying that the grant application was certified/approved
     Searching the List of Parties Excluded from Federal procurement or non-
      procurement programs to ensure recipient does not appear on the list
     Confirming whether the grant was subject to a hold, and, if so, verifying that there
      were no unauthorized drawdowns of funds
     Verifying that drawdowns did not exceed the awarded amount
     Verifying that the grantee completed a Federal Financial Report (FFR)
     Verifying that Program Officers performed monitoring and reviewed progress
      reports for eligible grant program activities as evidenced in eGrants

None of these attributes would detect whether disbursements from these grants were
improper, as OIG frequently discovers when auditing grantees. Although the total value
of the sampled transactions was high—$45,776,943 for AmeriCorps State and National
programs, and $7,559,611 for Senior Corps programs—all but three of the individual
transactions sampled by the consultant represented the entire grant amount, without any
testing of downstream disbursements from the grants, allowability of costs incurred by
the grantee, or member eligibility. The sheer size of the sample—411 grants, split


                                             3
between Senior Corps and AmeriCorps—precluded meaningful testing of
disbursements. Without testing the use of the grant proceeds, treating the entire grant
amount as “proper” presents a misleading picture.

Certain of the attributes were not properly designed, even if the only objective was
testing at the grant level. For example, verifying that a grantee has completed an FFR is
important, but the review is incomplete unless that FFR reconciles to the grantee’s
internal financial records and the drawdown records maintained by the Department of
Health and Human Service’s Payment Management System. By failing to conduct a
more thorough FFR review, the Corporation missed key opportunities to detect potential
improper payments.

Further, we noted that the Corporation conducted its FY 2012 improper payment review
and testing based on transactions in FY 2010, yielding outdated results. In response to
our inquiry as to why a more recent period was not selected, the consultant stated that
this was the only data provided by the Corporation, and that the testing scope was
determined by the Corporation on the basis of document availability, time limitation, and
resource constraints. The sample coverage was also inadequate in that it included only
two contracts and one credit card payment.

We believe it is likely that the Corporation has understated the magnitude of improper
payments in its programs. Overall, we consider the attributes tested, the sample size,
coverage, and period tested by the Corporation were insufficient to properly assess
and/or detect instances of improper payments. Without a sound methodology, the
Corporation cannot obtain a meaningful estimate of its improper payments or determine
what measures would be most effective to prevent them from recurring.

Recommendations

We recommend that the Corporation:

   2a. Develop a comprehensive testing plan to include attributes to verify that the
       Corporation did not make payments or undertake obligations to ineligible
       members, for unallowable or prohibited activities or based on inadequate
       documentary support. It is efficient to incorporate this type of testing in the
       internal control structure used to manage high-risk programs; and

   2b. Ensure that the sample size, coverage, and period utilized to analyze improper
       payments will enable sufficient, comprehensive, and timely testing.




                                           4
Finding 3.               The Corporation’s efforts to estimate improper payments did not
                         address all known weaknesses (a repeat finding from prior year).

Again this year, the Corporation’s efforts to estimate improper payments overlooked
improper payments identified in OIG audits and investigations and OMB Circular A-1333
audit reports. The consultant confirmed that these sources had not been incorporated
into its analysis, citing “funding restrictions and limited scope” as the reasons. As a
result, the Corporation has understated its improper payments although the relevant
information was readily available; as previously noted, for FY 2012, OIG audits alone
identified questioned costs totaling more than $3.6 million. Ignoring these tools for the
second year in a row calls into question the rigor of the Corporation’s efforts in the realm
of improper payments.

Quite apart from the specific questioned costs quantified in audits conducted by the OIG,
the repetitive nature of the audit findings that lead to questioned costs suggests that
many improper payments are going undetected by the Corporation’s own monitoring and
prevention efforts. Under the circumstances, a more robust assessment of improper
payments is needed, together with a rigorous review of root causes and internal control
weaknesses.

Recommendations

We recommend that the Corporation:

       3a.        Implement effective testing procedures to completely and accurately identify
                  the full extent of improper payments by capturing improper payments identified
                  in OIG audits and investigations as well as OMB Circular A-133 reports;

       3b.        Utilize existing Corporation monitoring tools, including quarterly reviews,
                  internal control reviews, and grantee/subgrantee monitoring reviews, to
                  enhance the process of identifying and recovering improper payments; and

       3c.        Conduct a thorough review of the root causes of improper payments in order to
                  determine how best to strengthen its internal controls to prevent such
                  payments in the future.

Finding 4. The Corporation does not make use of the Treasury’s Do Not Pay
           solution and did not establish a plan to do so, as required by OMB
           Memorandum M-12-11.

In June 2010, the President directed the establishment of a Do Not Pay List, a single-
point-of-entry network of databases to be consulted before determining eligibility for any
Federal funding. Its purpose was to prevent improper payments by centralizing
resources that could be used to identify ineligible recipients. The mechanism developed
by OMB and the Treasury, known as the Do Not Pay solution, consists of two
components:

                                                            
3
   OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations, Subpart B --
Audits, §___.200, Audit requirements., (b), states “[n]on-Federal entities that expend $300,000 ($500,000 for
fiscal years ending after December 31, 2003) or more in a year in Federal awards shall have a single audit
conducted.”

                                                               5
      A web-based, single-entry access portal that enables agencies to verify the
       eligibility of potential recipients of Federal funds; and
      Data Analytics Services that utilize additional resources to identify trends,
       anomalies, risks and patterns of behavior associated with improper payments.

In April 2012, OMB issued instructions that “Federal agencies must take immediate
steps to use the centralized solutions that are already in place for pre-payment eligibility
reviews.” OMB Memorandum M-12-11, Reducing Improper Payments through the “Do
Not Pay List” at page 2. To that end, each agency was required to submit a plan for
using the Do Not Pay solution. Id. The Corporation did not respond, nor has it made use
of this resource to date.

The OIG has introduced the Corporation’s Office of Accountability and Oversight to
representatives of the Do Not Pay solution, to explore how the Corporation might best
make use of this resource. The OIG hopes that the Corporation will take full advantage
of the Do Not Pay solution as an efficient means to prevent improper payments,
including disbursements from Corporation grants.

Recommendations

We recommend that the Corporation:

   4a. Work with the Treasury Department to develop a detailed plan for using the Do
       Not Pay solution, including its data analytic capability;

   4b. Integrate use of the Do Not Pay solution into the Corporation’s operations; and

   4c. Measure the results of using the Do Not Pay solution by tracking the improper
       payments avoided.


                         OBJECTIVE, SCOPE, AND METHODOLOGY

Our evaluation objective was to determine whether the Corporation performed its
improper payment assessment in compliance with IPERA, applicable Executive Orders,
and OMB guidance.

We conducted this evaluation in accordance with the Quality Standards for Inspection
and Evaluation issued by the Council of the Inspectors General on Integrity and
Efficiency.

We performed our evaluation from October 2012 to February 2013 at the Corporation’s
Headquarters in Washington, DC. Our evaluation entailed a review and assessment of
the Corporation’s efforts in determining and reporting improper payments. We conferred
with Corporation personnel regarding their work in assessing improper payments and to
reiterate the concerns expressed in last year’s IPERA review regarding design of the
testing attributes and omission of OIG’s audit results from the Corporation’s overall
improper payment assessment. We conducted interviews with the consultants who were
retained by the Corporation to obtain an understanding of the work they performed,
including methodology, results of risk assessments, and testing procedures and results.

                                             6
We reviewed their reports and supporting documentation to determine whether the
methodology and testing procedures used to assess improper payments were
reasonable, sound, and reliable. The Corporation reviewed and tested payments made
between October 1, 2009 and September 30, 2010.

In addition, we reviewed prior audit reports to identify questioned costs that should have
been incorporated into the Corporation’s overall improper payment assessments. We
also reviewed applicable laws and regulations (such as OMB Circular A-123, Appendix
C; the IPERA [Public Law 111-204]; the OMB Memorandums M-11-04, M-11-16, M-12-
11; and Executive Order 13520), and the Corporation’s FY 2012 AFR.


                                                               BACKGROUND

An improper payment is defined as any payment that should not have been made or that
was made in an incorrect amount, to an ineligible recipient or for ineligible goods or
services or for goods and services that were not received, any duplicate payment, or any
payment that does not account for credit for applicable discounts.4  Improper payments
may result from inadequate recordkeeping, inaccurate eligibility determinations,
inadvertent processing errors, the lack of timely and reliable information to confirm
payment accuracy, or fraud.  OMB guidance instructs agencies to report as improper
payments of any payments for which insufficient or no documentation was found.

To implement the goal of reducing wasteful improper payments, the President signed
IPERA into law in July 2010.5 IPERA requires agencies to identify programs or activities
that are susceptible to significant improper payments, conduct a risk assessment,
perform testing of programs considered high risk, test a sample of transactions,
determine the estimated amount of improper payments, and develop and implement
corrective actions plans for high risk programs.

OMB Circular A-123, Appendix C, provides guidance to Federal agencies on
implementing IPERA which reinforces significant reliance on internal controls. As stated
in the Government Accountability Office’s testimony before the “Subcommittee on
Government Organization, Efficiency, and Financial Management, Committee on
Oversight and Government Reform, House of Representatives” on  February 7, 2012,
implementing strong preventive controls can help defend against improper payments,
increasing public confidence and avoiding the difficult “pay and chase” aspects of
recovering improper payments. Preventive controls involve activities such as upfront
validation of eligibility using electronic data matching, predictive analytic tests, and
training programs.

In recent years, the Federal government has made eliminating improper payments a
focal point targeting reduction in fraud, waste, and abuse. IPERA requires the following:
                                                            
4
  OMB Circular A-123, Management’s Responsibility for Internal Control, Appendix C. Requirements for
Effective Measurement and Remediation of Improper Payments, April 14, 2011.
5
  In additions to the existing IPERA legislation, the President signed the Improper Payments Elimination and
Recovery Act of 2012 in December 2012, which requires OMB to issue additional rules to agencies requiring
more consistent and complete estimates of overpayments. The law also codifies the executive order
regarding the establishment of a government-wide “Do Not Pay List.” This new Act becomes effective from
FY 2013.

                                                                   7
      Increased transparency and intensified agency efforts in preventing, identifying,
       and recovering payment errors within Federal spending;

      Agencies annually identify programs and activities susceptible to improper
       payments, estimate the annual amount of improper payments and submit the
       estimate to the President and Congress. Agencies are to include the estimates
       in their AFR; and

      Inspector General reviews of agency’s improper payment reporting in the AFR
       and report on the agency’s compliance.

The Corporation’s Office of Accountability and Oversight was established in FY 2012
and is responsible for reporting on the Corporation’s compliance with IPERA. The
Corporation contracted with a consulting firm to conduct improper payment testing on
programs deemed to be of the highest risk. The Corporation selected payments from
the AmeriCorps State and National as well as payments from the Senior Corps
programs for the FY 2012 IPERA reporting. The scope of the payments was made
between October 1, 2009 and September 30, 2010. The consultants tested a total of
414 payment samples. For FY 2010, the AmeriCorps State and National and the Senior
Corps reported outlays of approximately $526 million. The Corporation reported no
improper payment based on the testing procedures it performed.  


                                   EXIT CONFERENCE

We discussed the contents of this draft report with Corporation representatives at an exit
conference held on February 27, 2013. We summarized the Corporation’s response to
the draft report below and included its response, in its entirety, as Appendix A.


                                CORPORATION RESPONSE

Corporation management generally concurred with our determination that it needs to
make substantial improvements to is analysis and estimation of improper payments.
The Corporation stated that it intends to undertake a comprehensive review of its
programs to determine their susceptibility to significant levels of improper payments, and
its preliminary analysis indicates that the AmeriCorps State and National program is
most likely to reach that threshold. The Corporation plans to work with us on how our
findings can be used in planning a comprehensive, statistically-projectable review of
unallowable grant costs and developing means of using the Do Not Pay solution as part
of the Corporation’s internal controls.




                                            8
                                      OIG COMMENT

We look forward to working with the Corporation to reduce and eliminate improper
payments, including integrating Do Not Pay solution capabilities into its internal control
and implementing a reliable methodology for estimating unallowable grant costs.
Compliance with these OMS requirements should go a long way towards reducing waste
and fraud and ensuring that public resources are spent efficiently and effectively. We
welcome the Corporation's acknowledgement that its prior efforts have been
insufficiently rigorous, and that the high questioned costs identified in recent audits cast
doubt on the Corporation's past determination that none of its programs presents a
significant risk of improper payments. We will continue to assess the Corporation's
progress in complying with IPERA and its efforts to estimate and reduce improper
payments.




 tuart Ax nfel , ssistant Inspector General for Audit
Office of Inspector General
Corporation for National and Community Service




                                             9
                 Appendix A

    Corporation’s Response to Draft Report

 




                     10
                                                                                                            1201 New York Avenue, NW
                                                                             NATIONAL&:
                                                                             COMMUNITY
                                                                                                            Washington, DC 20525
                                                                                                            202-606-5000
                                                                             SERVICB ttt                    NationalServlce.gov


        To:        Stuart Axenfeld, Assistant Inspector General for Audit

        From:      Douglas      ilt$!:   ~ccountability and Oversight
        Datc:      March 12, 2013

        Subject: Comments on the Office of the Inspector General's (OIG) Draft Report Fiscal Year
                 2012 Evaluation of the Corporation' s Compliancc with the Improper Payments
                 Elimination and Recovery Act (lPERA)


                Thank you for the opportunity to review the draft OIG report on the Corporation for
        National and Community Service's (CNCS) compliance with IP ERA. Rather than respond to
        each ofthc findings in the draft rep0l1 individually, CNCS will respond to the findings generally
        and to the overall results of the OIG ' s evaluation. Those overall results arc that CNCS needs to
        do far more than it has in the past in regard to analy;;:ing the potential for and calculating
        estimates of improper payments made within its programs. With this criticism, CNCS concurs.
        CNCS' approach to its IP ERA analysis is being led by a different management structure,
        including a new Chief Financial Officer and the recently established Office of Accountability
        and Oversight. CNCS is committed to a comprehensive assessment under IPERA and its
        implementing guidance, and appreciates the constructive feedback of the OIG.

                As we reported in our fiscal year 2012 Agency Financial Report, in 2013 CNCS is
        undertaking a new review ofwhcther its programs are susceptible to significant levels of
        improper payments as defined in IPERA and all the relevant implementing guidance.
        Preliminary analysis indicates that the AmeriCorps State and National (ASN) grant program
        would be most the likely CNCS prol,'Tum to reach the IPERA threshold of being subject to
        significant levcls of improper payments. I

                As the OIG points out, there are a number of OIG and A-133 audits that call significant
        amounts of claimed AmeriCorps grantee costs into question. Having considered various
        accepted methods for estimating improper payments, CNCS has concluded that assessments of
        improper payments within its grant programs should be based upon assessing unallowable costs
        charged to grant funds by grantees. However, relying on ASN grant costs which are disallowed
        after being questioned in audits is not a sufficient basis for conducting an analysis IPERA. This
        is because those audits are not undertaken on a basis that allows for statistically valid projections
        of disallowed costs across an entire grant program as required under OMS Circular A-123,
        Appendix C. Many of the OIG's most recent audits (some of which have identified the highest
        levels of questioned costs) have been conducted at the request ofCNCS because of concerns that


        I CNCS' evaluation will include all of its programs. However, because the balance of its programs are significantly
        smaller than AmeriCorps grants, CNCS considers it highly unlikel y that any other program wi ll have improper
        payments which approach the $10 million IPERA threshold.

DISASTERSERVICES I ECONOMIC OPPORTUNITY I EDUCATION I ENVIRONMENTAL STEWARDSHIP I HEALTHYFUTURES I VETERANS AND MILITARYFAMILIES

                              AMERICORPS I SE NIOR CORPS I SOCIAL INNOVATION FUND
                                                                                                                       2


        arose in the contcxt of the comprehensive ongoing grantec monitoring that CNCS conducts.
        These audits occur when CNCS identifies an anomalously high level of risk in certain programs,
        rathcr than when an average or low level of risk is present. This has been especially true in FY
        2012 and 2013. As the OlG's funding has been severely reduced, more of its audit work has
        been occurring in programs specifically identified by CNCS as higher risk as part of its ongoing
        oversight and monitoring. While ongoing grantee monitoring and resultant audits are vital
        components of CNCS' overall system of accountability, thcy do not meet the specific objectivcs
        of improper payment testing under IPERA and its implementing guidance because the skewing
        of audit work toward higher risk grantees severely erodes the value of those audit results as an
        overall assessment of the susceptibility of the ASN grant program to significant improper
        paymcnts.

                For these reasons, CNCS is planning a comprehensive, statistically-projeetable review of
        costs incurred by ASN grants to dcvelop a basis on which to assess the level of costs that are
        improper on the basis of11ot conforming to the terms and conditions of CNCS' awards (including
        the associated Office of Management and Budget cost principles). Wc anticipate that this
        analysis will give CNCS a proper basis on which to pursue fillthcr activities designed to ensure
        compliance with IPERA. We look forward to discussing with OIG how its findings can be used
        as part of planning that work .

                In addition, CNCS concurs with OIG's spccific recommendation to considcr using the
        Trcasury Department's Do Not Pay solution as part ofCNCS' j:,'rant award and oversight
        processes, as well as other appropriate programs and operations. CNCS' CFO and Director of
        Accountability and Oversight recently met with OIG and Treasury officials to receive a briefing
        on the functionality of the variOlls Do Not Pay databases, as well as the data analytics which are
        available. CNCS looks forward to working with the OIG in developing means of using Do Not
        Pay resources as part of our system of internal controls.




DISASTER SERVICES I ECONOMIC OPPORTUNITY I EDUCATION I ENVIRONMENTAL STEWARDSHIP I HEALTHYFUTURES I VETERANS AND MILITARYFAMILIES

                              AMERICORPS I SENIOR CORPS I SOC I AL INNOVATION FUND
